OFFICE OF AUDIT
REGION 7
KANSAS CITY, KS




         U.S. Department of Housing and Urban
                     Development

                  Preforeclosure Sale Program




2012-KC-0004                                    SEPTEMBER 18, 2012
                                                   U.S. DEPARTMENT OF
                               HOUSING AND URBAN DEVELOPMENT
                                           OFFICE OF INSPECTOR GENERAL




                                                                        Issue Date: September 18, 2012

                                                                        Audit Report Number: 2012-KC-0004


TO:            Charles Coulter, Deputy Assistant Secretary for Single Family Housing, HU

               //signed//
FROM:          Ronald J. Hosking, Regional Inspector General for Audit, 7AGA


SUBJECT:       FHA Paid Claims for Approximately 11,693 Preforeclosure Sales that Did Not
               Meet FHA Requirements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the Preforeclosure Sale Program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
913-551-5870.




                                                Office of Audit Region 7
                                  400 State Avenue, Suite 501, Kansas City, KS 66101
                                      Phone (913) 551-5870, Fax (913) 551-5877
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                          September 18, 2012
                                          FHA Paid Claims for Approximately 11,693
                                          Preforeclosure Sales that Did Not Meet FHA
                                          Requirements



Highlights
Audit Report 2012-KC-0004


 What We Audited and Why                    What We Found

We reviewed the Federal Housing           We found that 61 of 80 statistically selected claims
Administration (FHA) Preforeclosure       from September 1, 2010, through August 31, 2011 did
Sale Program. We initiated this           not meet the criteria for participation in the
nationwide audit because we noted         Preforeclosure Sale Program. Of these ineligible
significant deficiencies in borrower      claims, 55 were submitted by the five lenders involved
qualifications during our audit of        in the national mortgage settlement. In exchange for
CitiMortgage’s preforeclosure sale        roughly $25 billion, the settlement pardoned these
claims (2011-KC-1005, September 30,       lenders’ misconduct in loan servicing, including their
2011).                                    processing of preforeclosure sale claims. The
                                          remaining six improper claims totaling $360,760 were
Our audit objective was to determine      submitted by lenders that were not involved in the
whether the U.S. Department of            national mortgage settlement.
Housing and Urban Development
(HUD) paid claims for only                 By projecting our sample results, we estimate that
preforeclosure sales that met the criteria HUD paid $1.06 billion in claims for 11,693
for participation in the program.          preforeclosure sales during our audit period that did
                                           not meet the criteria for participation in the program.
                                           While this amount of claims did not comply with HUD
  What We Recommend
                                           requirements, it does not represent a direct loss amount
                                           to the FHA insurance fund. The ultimate final cost to
We recommend that HUD strengthen           the FHA insurance fund would likely be less than this
controls over the Preforeclosure Sale      amount because it is reasonable to assume that at least
Program to put more than $781 million some of these loans could have been processed
to better use. Funds to be put to better differently and would have instead gone to foreclosure
use is an estimate of funds that could be and become conveyance claims. However, it is also
used more appropriately. It does not       reasonable to assume that at least some of these loans
represent a direct reduction in costs to   would have resulted in no claim or reduced claims due
the insurance fund. It means that          to alternative loss mitigation procedures.
improved controls will prevent $781
million in insurance funds from being      For purposes of estimating future benefits of
spent on future claims that do not         improving the program, we made our estimate more
qualify for the program. Additionally, conservative by removing 16 claims from the list of
we recommend that HUD require              exceptions that we determined would have insufficient
lenders to reimburse the FHA insurance income to support the IRS collection standard’s
fund for improper claims totaling          accepted expense levels. The projected dollar value of
$360,760.                                  the remaining 45 claims is $781 million.


                                                  
                              TABLE OF CONTENTS


Background and Objective                                                               3

Results of Audit
        Finding: HUD Paid More Than $1 Billion in Claims for Approximately 11,693      4
        Preforeclosure Sales That Did Not Meet the Criteria for Participation in the
        Program

Scope and Methodology                                                                  10

Internal Controls                                                                      13

Appendixes
   A.   Schedule of Questioned Costs and Funds To Be Put to Better Use                 14
   B.   Auditee Comments and OIG’s Evaluation                                          15
   C.   Schedule of Loan Deficiencies                                                  17
   D.   Criteria                                                                       20
   E.   Mortgagee Letter 2008-43 Weaknesses
                                                                                       23




                                              2
                      BACKGROUND AND OBJECTIVES
The Federal Housing Administration (FHA) provides mortgage insurance on loans made by
FHA-approved lenders throughout the United States and its territories. It is the largest insurer of
mortgages in the world, having insured more than 34 million properties since its inception in
1934. FHA mortgage insurance provides lenders with protection against losses as the result of
homeowners defaulting on their mortgage loans. The lenders bear less risk because FHA will
pay a claim to the lender in the event of a homeowner’s default.

FHA’s Preforeclosure Sale Program allows borrowers in default (resulting from an adverse and
unavoidable financial situation) to sell their home at fair market value and use the sale proceeds
to satisfy the mortgage debt even if the proceeds are less than the amount owed. This program is
appropriate for borrowers whose financial situation requires that they sell their home but they are
unable to do so without FHA relief because the gross recovery on the sale of their property (that
is, sales price minus sales expenses) is less than the amount owed on the mortgage. Lenders
must maintain supporting documentation to demonstrate that they completed a comprehensive
review of the borrower’s financial records and that the borrower did not have sufficient income
to sustain the mortgage. Lenders and borrowers who successfully complete a preforeclosure sale
receive cash incentives of up to $1,000 for participating in the program. The program
requirements are contained in 24 CFR (Code of Federal Regulations) 203.370 Pre-Foreclosure
Sales and Mortgagee Letter 2008-43, Preforeclosure Sales (PFS) Program – Utilizing the PFS
Loss Mitigation Option to Assist Families Facing Foreclosure, issued December 24, 2008 (see
appendix D).

FHA paid claims on nearly 20,000 preforeclosure sales with claims totaling more than $1.7
billion from September 1, 2010, through August 31, 2011. The volume of preforeclosure sale
claims has been increasing relative to foreclosure (conveyance) claims in the past 5 years.

                              Yearly Claim Totals
          120,000 

          100,000 

           80,000 

           60,000                                               Conveyance

           40,000 
                                                                PFS
           20,000 

                ‐
                     2007    2008     2009   2010       2011



       * PFS = Preforeclosure Sale Program


Our audit objective was to determine whether HUD paid claims for only preforeclosure sales that
met the criteria for participation in the program.

                                                    3
                                                     
                                RESULTS OF AUDIT


Finding: HUD Paid More Than $1 Billion in Claims for Approximately
11,693 Preforeclosure Sales That Did Not Meet the Criteria for
Participation in the Program
HUD paid claims for approximately 11,693 preforeclosure sales during our audit period that did
not meet the criteria for participation in the program. HUD did not have adequate controls to
enforce the program requirements, and the requirements were not well written. As a result, the
FHA insurance fund may have taken unnecessary losses while borrowers, who may otherwise
have been able to sustain their obligations, were inappropriately relieved of their debt using FHA
insurance fund reserves.


 Improper Claims Paid

               FHA paid claims on nearly 20,000 preforeclosure sales with claims totaling more
               than $1.7 billion from September 1, 2010, through August 31, 2011. To conduct
               this audit, we focused on the 16,976 preforeclosure sale claims submitted by the 9
               largest lenders according to preforeclosure sale volume. We selected a statistical
               sample of 80 claims from this universe of 16,976 (see Scope and Methodology for
               details of our selection).

               Of the 80 files reviewed, 61, or 76.3 percent, were ineligible because they did not
               meet the criteria for participation in the program. The following table identifies
               how often each of the various deficiencies occurred in the 61 cases. The total
               number of claims depicted below exceeds the total number of cases reviewed
               because some cases had multiple deficiencies (see appendix C).

                    Deficiency                                          Number of claims 
                    Borrower had assets                                        4 
                    No adverse or unavoidable event                            6 
                    Not owner occupied                                        12 
                    No income verification                                    15 
                    Borrower had surplus income –                                
                    verified income exceeds claimed expenses                  12 
                    verified income exceeds verified expenses                 48 

               By projecting these ineligible claims to the universe of 16,976 claims, we
               estimated that at least 11,693 of the claims were ineligible. By projecting the
               average ineligible amount per claim, we estimated that the total value of the



                                                4
                                                  
ineligible claims was $1.06 billion (see Scope and Methodology for details of our
projections).

Borrower Had Assets
HUD paid four claims for borrowers who had at least $5,000 in cash assets.
Mortgagee Letter 2008-43 prohibits borrowers with assets from participating in
the program. In some cases, borrowers had bank balances equivalent to 7 to 9
months’ worth of mortgage payments but were not required to put those funds
toward the delinquent mortgage balance, even when it could have brought the
mortgage current.

No Adverse or Unavoidable Event
HUD paid six claims for borrowers who did not demonstrate that they had
experienced an adverse and unavoidable financial hardship. According to section
C of 24 CFR 203.370 and section B of the mortgagee letter, adverse and
unavoidable financial situations may include but are not limited to loss of job or
verifiable income reduction and extensive medical expenses. In some cases, the
borrower’s claimed hardship was related to a nonborrower spouse or significant
other whose income and asset information was not considered when qualifying to
participate in the program. In one case, the borrower claimed that his income had
been decreasing, but documents in the case file showed that it had been
increasing.

Not Owner Occupied
HUD paid 12 claims for borrowers who did not occupy the property. Section C of
the CFR and section B of the mortgagee letter require participants in the program
to be owner-occupants. Lenders are authorized to grant reasonable exceptions to
nonoccupant borrowers when it can be demonstrated that the need to vacate was
related to the cause of default and the subject property was not purchased as a
rental or used as a rental for more than 18 months before the borrower’s
acceptance into the program. We noted instances in which the borrower’s income
tax return listed the property as a rental for several years. In other cases, the
borrower reported the property as a rental in statements to the lenders.

No Income Verification
HUD paid 15 claims for which the lenders did not properly calculate or verify the
borrowers’ income. Section D of the mortgagee letter requires lenders to estimate
the borrower’s anticipated monthly net income, making necessary adjustments for
income fluctuations, and independently verify the financial information provided
by the borrower. In some cases, the lenders calculated income based on only one
coborrower; in other cases, the lender determined borrower income without
verifying it with either bank statements or earnings statements. Finally, in some
cases, the lender did not obtain tax returns or profit-and-loss statements to verify
the income of self-employed borrowers.




                                 5
                                   
           Borrower Had Surplus Income
           HUD paid 48 claims for which the lender did not adequately verify expenses to
           show negative surplus income. Section D of the mortgagee letter requires lenders
           to estimate the borrower’s fixed monthly expenses (such as mortgage payment,
           food, utilities, car payment, and outstanding obligations) and independently verify
           the financial information provided by the borrower. Lenders must then subtract
           expenses from income to determine the amount of surplus income available each
           month, and borrowers with positive surplus income are required to repay the
           indebtedness through the use of a repayment plan.

           In nearly all of the cases reviewed, expenses claimed by the borrowers exceeded
           those verified by the lender. Lenders often obtained bank statements but did not
           show an attempt to reconcile them to expenses claimed by the borrower. Since
           lenders largely verified only expenses shown on the credit report, in many cases,
           borrowers were approved to participate in the program despite their verified
           income exceeding their verified expenses. In 12 cases, the borrowers’ verified
           income even exceeded their claimed expenses.

Inadequate Controls

           HUD did not have adequate controls to enforce the program requirements, and the
           requirements were not well written.

           Oversight
           HUD did not adequately monitor and enforce the program requirements. Before
           paying a claim, HUD had certain built-in edit checks to ensure that it paid
           accurate amounts. However, these edit checks did not address whether the
           borrower was qualified. Rather, they checked computations and relationships
           among various fields. Since lenders did not submit their files to HUD, HUD was
           not able to ensure the validity of the claim before paying it. HUD instead relied
           entirely on the lender to have followed the mortgagee letter in approving the
           borrower for the program.

           After paying claims, HUD’s claims department reviewed a sample of all claims
           paid including those related to preforeclosure sales. During our audit period, the
           scope of this review did not include borrower qualification for the program.
           Therefore, HUD did not inform lenders of their deficient activities in this
           program. During the summer of 2011, HUD added borrower qualification to the
           scope of the review and found problems similar to those reported in this finding.
           While this is a positive step, HUD needs to incorporate this as part of an overall
           strategy of monitoring and enforcing the program guidance that includes the use
           of administrative and civil sanctions against lenders that violate program
           requirements.




                                            6
                                              
           Design
           The mortgagee letter clearly states the restrictions of the program and identifies
           the qualifications necessary for borrowers to participate in the program.
           However, it does not contain enough detail to ensure that lenders consistently
           apply the requirements and evaluate the qualifications. HUD designed the
           program requirements to give lenders more flexibility and increase participation
           in the program. HUD stated that the mortgagee letter was not written to address a
           situation in which so many homes had negative equity and that changing the
           program now, in light of current economic conditions, would be problematic and
           cause the program to be less useful when conditions improved. Specifically,
           HUD stated that it believed program requirements too strictly defined would
           create their own problems.

           The resulting mortgagee letter is not as helpful to the lenders as it could be if it
           spelled out the requirements in more detail (see appendix E). For example, the
           requirement that lenders disapprove borrowers with assets lacks detail. We
           conservatively applied the mortgagee letter to cite only those with cash assets
           over $5,000 and to not cite any who lacked asset verification. One lender asserted
           that it thought assets mattered only if they were sufficient to pay off the mortgage.
           HUD could avoid such misunderstanding by providing more detail to instruct the
           lenders. In addition, the requirement that lenders independently verify a
           borrower’s expenses was difficult to apply since not all monthly expenses can be
           easily verified with a monthly statement. If the mortgagee letter had based
           expenses on standardized allowances such as the Internal Revenue Service (IRS)
           Collection Financial Standards (see Scope and Methodology), it would have been
           easier, more objective, and more likely to be applied consistently.

Ineligible FHA Insurance Fund
Claims

           The FHA insurance fund paid improper claims of more than $1 billion while
           borrowers who may otherwise have been able to sustain their obligations were
           inappropriately relieved of their debt using FHA insurance fund reserves.

           Using statistical sampling procedures to project the ineligible claims to the
           universe of 16,976 claims, we estimated that HUD paid at least $1 billion in
           improper claims. The $1 billion does not represent a direct loss to the FHA
           insurance fund. The ultimate final cost to the FHA insurance fund would likely
           be less than this amount because it is reasonable to assume that at least some of
           these loans could have been processed differently and would have instead gone to
           foreclosure and become conveyance claims. However, it is also reasonable to
           assume that at least some of these loans would have resulted in no claim or
           reduced claims due to alternative loss mitigation procedures.

           During the most recent 5-year period, the loss per preforeclosure sale dramatically
           increased as the volume of preforeclosure sale claims submitted to HUD also

                                             7
                                              
             dramatically increased. HUD expects the volume of preforeclosure sale claims to
             continue to increase. As a result, HUD will continue to pay improper claims if it
             does not improve its controls over this program. For the purposes of estimating
             future benefits, we estimate more than $781 million will be put to better use over
             the next year if HUD implements our recommendations. To make this estimate
             more conservative, we removed 16 claims from our list of exceptions because we
             determined that the borrowers’ expenses, using the IRS collection standards’
             accepted expense levels, would have been higher than their verified incomes.
             This estimate of future benefits is the amount we believe will not be paid in
             claims or will be paid for eligible claims instead of ineligible claims over the next
             year (see Scope and Methodology).

             The mortgagee letter explicitly states that under no circumstances may the
             program be made available to borrowers who have abandoned their mortgage
             obligation despite their continued ability to pay. Any borrower allowed to
             participate in the program without demonstrating his or her need for assistance or
             despite having assets, surplus income, or other means of sustaining the mortgage
             has been inappropriately relieved of their debt. The results of our review show
             that HUD’s controls over this program were not strong enough to prevent this
             inappropriate debt relief.

Conclusion

             HUD paid more than $1 billion for preforeclosure sale claims that did not comply
             with FHA’s preforeclosure sale program requirements. The lenders allowed
             borrowers to complete preforeclosure sales at FHA’s expense without verifying
             the borrowers’ compliance with requirements related to hardship, owner-
             occupancy, and a borrower’s inability to afford the mortgage. Of the 61 improper
             claims identified during this audit, 55 were submitted by the five lenders involved
             in the national mortgage settlement. In exchange for roughly $25 billion in relief
             for distressed borrowers, States, and the Federal Government, the settlement
             pardoned these lenders’ misconduct in loan servicing, including their processing
             of preforeclosure sale claims. The remaining six improper claims totaling
             $360,760 were submitted by lenders that were not involved in the national
             mortgage settlement. HUD should recover the $360,760 in losses from those
             lenders.

             HUD also needs to strengthen controls to help ensure future program compliance
             and ensure that it pays only eligible preforeclosure sale claims.




                                               8
                                                 
Recommendations

          We recommend that the Deputy Assistant Secretary for Single Family Housing

          1A. Require lenders to reimburse the FHA insurance fund for six of the improper
              claims totaling $360,760.

          1B. Strengthen controls over the preforeclosure sale program, including the
              mortgagee letter and program oversight, to put more than $781 million to
              better use.

          1C. Educate lenders on the appropriate and proper use of the Preforeclosure Sale
              Program.




                                          9
                                            
                          SCOPE AND METHODOLOGY

To accomplish our objective, we

      Interviewed HUD staff;
      Reviewed Federal regulations, HUD handbooks, and mortgagee letters; and
      Selected and reviewed a statistical sample of preforeclosure sale case files.

We performed our audit work between November 2011 and May 2012. We conducted audit
fieldwork at HUD headquarters at 451 7th Street Southwest, Washington, DC. Our audit generally
covered the period September 1, 2010, through August 31, 2011.

We relied in part on data maintained by HUD in its Neighborhood Watch Early Warning System
and Single Family Data Warehouse database. Specifically, we relied on the systems to identify
preforeclosure sales that closed during our audit period and the associated claim amounts. Although
we did not perform a detailed assessment of the reliability of the data, we determined that the
computer-processed data were sufficiently reliable for our purposes because the data in the sampled
items were corroborated by documentary evidence supplied by the sampled lenders.

From September 1, 2010, through August 31, 2011, FHA paid 19,567 preforeclosure sale claims
totaling more than $1.7 billion. The nine lenders with the highest volume of preforeclosure sales
submitted more than 87 percent of these claims. We limited the sample universe to these top nine.
In addition, we excluded as outliers 79 loan claims that exceeded $300,000 to control for accuracy.
This universe amounts to 16,976 claims totaling more than $1.5 billion.

A 16-strata sample design was used to control for variance attributable to the size of the loan claim
and for different lengths of time in default before going to claim. The sample design was tested
with various rates of error to confirm that a reliable answer could be obtained and that the
confidence intervals, as specified, would provide an accurate probabilistic statement. Replicated
sampling was used to simulate 1,000 different audits for each of several sample sizes and types of
error we might find in the field. As a safety measure, the design was stress tested under conditions
that concentrated improper payments in the smaller strata associated with short times to default. In
this manner, we verified that the randomly selected sample design wouldn’t misread important
information concentrated in a small area of the sample. (Actual error rates found proved to be more
uniformly distributed and yielded a variance that was more easily controlled.) Based on the testing
and simulated sampling distributions, a stratified sample of 80 loans was found to be sufficient. The
stress testing proved the sample design to be sufficient to provide better than a one-sided confidence
interval of 95 percent in situations designed for that threshold. The sample design was stratified as
shown in the following table.




                                                 10
                                                    
                                                      Strata Design 
        Strata                                           pct of                        pct of    Sample     Selection 
     (lag/tier)      Tier (size of claim)    Loans       loans         Total Claims   claims        Size        Prob
 1‐3 mos. ‐ tier1           $0 ‐ $39,999       321        1.9%          $8,517,196      0.6%           2      0.0062
 1‐3 mos. ‐ tier2 $40,000 ‐ $69,999            392        2.3%         $21,419,175      1.4%           2      0.0051
 1‐3 mos. ‐ tier3 $70,000 ‐ $110,000           345        2.0%         $29,790,967      2.0%           2      0.0058
 1‐3 mos. ‐ tier4 $110,000 ‐$300,000           144        0.8%         $19,953,512      1.3%           2      0.0139
 4‐6 mos. ‐ tier1         $0 ‐ $39,999         622        3.7%         $17,056,241      1.1%           3      0.0048
 4‐6 mos. ‐ tier2    $40,000 ‐ $69,999         854        5.0%         $47,117,347      3.1%           4      0.0047
 4‐6 mos. ‐ tier3 $70,000 ‐ $110,000           756        4.5%         $66,013,930      4.4%           3      0.0040
 4‐6 mos. ‐ tier4 $110,000 ‐$300,000           429        2.5%         $59,036,041      3.9%           2      0.0047
7‐12 mos. ‐ tier1          $0 ‐ $39,999         978      5.8%         $26,491,346       1.8%          4       0.0041
7‐12 mos. ‐ tier2     $40,000 ‐ $69,999       1,883     11.1%       $104,125,071        6.9%          9       0.0048
7‐12 mos. ‐ tier3    $70,000 ‐ $110,000       2,044     12.0%       $180,834,191       12.0%          9       0.0044
7‐12 mos. ‐ tier4   $110,000 ‐$300,000        1,544      9.1%       $225,116,036       14.9%          7       0.0045
 >12 mos. ‐ tier1          $0 ‐ $39,999         541      3.2%         $15,167,767       1.0%          2       0.0037
 >12 mos. ‐ tier2     $40,000 ‐ $69,999       1,414      8.3%         $78,982,269       5.2%          7       0.0050
 >12 mos. ‐ tier3    $70,000 ‐ $110,000       1,920     11.3%       $171,729,625       11.4%          9       0.0047
 >12 mos. ‐ tier4   $110,000 ‐$300,000        2,789     16.4%       $436,687,685       29.0%         13       0.0047
                                             16,976    100.0%      $1,508,038,399     100.0%         80 
                                          

We reviewed the statistical sample of preforeclosure sale case files to evaluate whether the lender
verified that the borrower

       Suffered an adverse and unavoidable financial hardship,
       Did not have surplus assets,
       Did not have surplus income,
       Accurately stated income,
       Accurately stated expenses,
       Was in danger of imminent default if applicable,
       Was the owner-occupant of the subject property,
       Did not have another FHA-insured mortgage, and
       Was more than 30 days delinquent when the short sale closed.

And that (1) the mortgage payoff amount exceeded the “as-is” fair market value of the home, (2) the
home was listed for sale at or near the appraised “as-is” fair market value, and (3) the sale generated
the minimum net sales proceeds required by the program.

For the purposes of our review, borrowers were considered to have surplus assets when they had
more than $5,000 in cash and surplus income when income less expenses resulted in a positive
residual greater than zero.



                                                           11
                                                              
We determined that 61 of the 80 sampled loans, or 76.3 percent, did not meet the criteria for
participation in the program. Adjusting for sampling weights, that became an estimated mean of
76.5 percent of loans with improper payments. Given the laws of probability, all randomly selected
samples are subject to a margin of error or “statistical variance,” which must be accounted for.
Deducting for statistical variance, we can still say—with a one-sided confidence interval of 95
percent—that at least 11,693 of the 16,976 loans in the population had a similar problem.

Blending together failing and conforming loans we get an average amount of improper payment that
can be applied to the entire 16,976 loans. This amounts to $70,381 per loan. The average was
computed based on the sampling weights and loan counts within the stratified sample. Deducting
for statistical variance to accommodate the uncertainties inherent to statistical sampling, we can still
say—with a one-sided confidence interval of 95 percent—that improper payments amounted to
$62,434 per loan (rounded). Extending this amount to the general population of 16,976 loans, we
can say—with a one-sided confidence interval of 95 percent—that total improper payments
amounted to at least $1.06 billion.

To arrive at a more conservative estimate of funds to be put to better use, we reclassified 16 of our
failed sample claims as allowable and re-projected our results to the universe. For those 16 claims,
we determined that the individual borrowers would likely have been eligible for participation in the
program if the lender had adequately conducted all required verifications. We made that
determination by applying the IRS Collection Financial Standards to each borrower in our sample
combined with loan payments confirmed by their credit report, and found that for these 16 claims,
the borrower’s standardized monthly expenses exceeded their verified monthly income. This leaves
45 loan claims within the stratified sample that were improperly paid with an average improper
payment of $55,591 per loan. Deducting for statistical variance—we can say with a one-sided
confidence interval of 95 percent—that improper payments amounted to $46,044 per loan
(rounded). Extending this to the general population of 16,976 loans we can say with a one-sided
confidence of 95 percent that the total amount of improper payments would amount to at least $781
million over the next year if HUD does not implement our recommendations.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                  12
                                                     
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls over program design and oversight.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

                     The Preforeclosure Sale Program was not adequately designed or overseen
                      (see finding).




                                                 13
                                                   
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                                                               Funds to be
                   Recommendation
                                             Ineligible 1/     put to better
                          number
                                                                      use 2/
                                  1A               $360,760
                                  1B                          $781,642,944


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified.

     In this instance, if HUD implements our recommendations, it will ensure that
     preforeclosure sale claims are paid only for qualifying borrowers to lenders that have
     followed all of the program requirements. It will no longer pay claims for borrowers who
     have not demonstrated an adverse and unavoidable financial situation, owner-occupancy,
     or an inability to sustain the mortgage. Our estimate reflects only the initial year of this
     benefit. These amounts do not include potential offsetting costs incurred by HUD to
     implement our recommendations to strengthen controls.




                                             14
                                                
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         15
                           
                         OIG Evaluation of Auditee Comments

Comment 1   We agree that FHA needs strong, clear preforeclosure sale policies and oversight.
            These policies should align with FHA expectations and be designed to adequately
            protect the insurance fund. To address the issues identified in the report, these
            policies should include 1) a standardized intake form requiring the borrower to
            certify complete information on income and assets, 2) an objective method to
            evaluate whether a borrower should be required to forfeit some assets to
            participate, and 3) an objective method to document and evaluate the borrower’s
            hardship and financial need.

Comment 2   FHA asserts that it is likely that most of the 80 sampled properties would have
            been foreclosed upon if the preforeclosure sale transactions had not been
            approved. We did not evaluate that type of data as part of the scope of this audit.
            Reaching this conclusion would entail significant analysis of possible
            assumptions and existing data. It is also important to note that the difference in
            loss rates between preforeclosures and foreclosures has been narrowing. The
            average preforeclosure sale loss rate has been increasing more steeply than the
            average conveyance claim loss rate. We do not know how much more this
            difference will narrow and cannot make any conclusion about whether it will be
            cost beneficial to loosen the rules to allow more preforeclosure sale claims, but
            allow more marginal borrowers to participate.




                                             16
                                               
Appendix C

                     SCHEDULE OF LOAN DEFICIENCIES

                                                          Verified     Verified                  Would qualify 
                                                          income       income                     under OIG’s 
Sample                Lacks                  Income      exceeds      exceeds      # of loans     alternative 
item                 adverse    Not owner‐     not        claimed      verified       not          objective 
number     Assets     event      occupant    verified    expenses     expenses      eligible     expenses test  
      1                                                                   x             x              x 
      2                                                                                                  
      3                                                                   x             x              x 
      4                 x                       x                                       x                
      5                 x                                                 x             x                
      6                              x                                    x             x                
      7      x                                                x           x             x                
      8                                                       x           x             x                
      9                                                                                                  
     10                 x                                                 x             x                
     11                                                                                                  
     12                                         x                         x             x                
     13                                         x                                       x                
     14                                                                                                  
     15                                                                                                  
     16                                                                   x             x                
     17                                                                   x             x              x 
     18                 x                                     x           x             x                
     19                                                                   x             x                
     20                                         x                                       x                
     21                                                       x           x             x              x 
     22                              x                                                  x                
     23                                         x                         x             x                
     24                 x                                                 x             x                
     25                                                                                                  
     26                                                                                                  
     27                                                                                                  
     28                                                                                                  
     29                                         x                                       x                
     30                                                                   x             x              x 
     31                                                                                                  
     32                              x                                    x             x                
     33                              x          x                         x             x                
     34                                                                                                  
     35      x                                                x           x             x                
     36                                                       x           x             x                
                                                 17
                                                    
                                                          Verified     Verified                  Would qualify 
                                                          income       income                     under OIG’s 
Sample                Lacks                  Income      exceeds      exceeds      # of loans     alternative 
  item               adverse    Not owner‐     not        claimed      verified       not          objective 
number     Assets     event      occupant    verified    expenses     expenses      eligible     expenses test  
     37                                                       x           x             x                
     38      x                       x                        x           x             x                
     39                                         x                         x             x                
     40                              x                                    x             x                
     41                                                                                                   
     42                                         x                                       x                
     43                                                                                                   
     44                                                                                                   
     45      x                                  x             x           x             x                
     46                                         x                                       x                
     47                                                                   x             x                
     48                              x                                    x             x                
     49                              x                                    x             x                
     50                                         x            x                          x                
     51                                                                   x             x              x 
     52                                                                   x             x              x 
     53                                                                   x             x              x 
     54                                                                   x             x              x 
     55                                                                                                   
     56                                                                                                   
     57                                                                   x             x                
     58                                                                   x             x              x  
     59                                                      x            x             x              x 
     60                                                                   x             x                
     61                                         x                                       x                
     62                                                                   x             x              x 
     63                                                                   x             x              x 
     64                                                                                                   
     65                                                                   x             x                
     66                              x                                    x             x                
     67                                                                                                   
     68                                                                                                   
     69                              x                                                  x                
     70                                                                   x             x                
     71                                                                   x             x              x 
     72                              x                                                  x                
     73                                                                   x             x              x 
     74                                         x                                       x                
     75                              x                                    x             x                
     76                                                                   x             x                

                                                 18
                                                    
                                                               Verified     Verified                  Would qualify 
                                                               income       income                     under OIG’s 
     Sample                Lacks                  Income      exceeds      exceeds      # of loans     alternative 
       item               adverse    Not owner‐     not        claimed      verified       not          objective 
     number     Assets     event      occupant    verified    expenses     expenses      eligible     expenses test  
          77                 x                                     x           x             x                
          78                                         x                                       x                
          79                                                                   x             x              x 
          80                                                                   x             x                
                  4          6          12          15           12           48           61              16 




                                                      19
                                                           
Appendix D

                                         CRITERIA

24 CFR 203.370 - Pre-foreclosure sales.

(a) General. HUD will pay FHA insurance benefits to mortgagees in cases where, in accordance
    with all regulations and procedures applicable to pre-foreclosure sales, the mortgaged
    property is sold by the mortgagor, after default and prior to foreclosure, at its current fair
    market value (less adjustments as the FHA Commissioner may deem appropriate) but for less
    than the mortgage loan amount currently outstanding.

(b) Notification of mortgagor. The mortgagee shall give notice, according to prescribed
    procedures, of the opportunity to be considered for the pre-foreclosure sale procedure to each
    mortgagor in default. All notices to mortgagors must be in an accessible format, if requested,
    or if required by the person’s known disability, as required by 24 CFR part 9.

(c) Eligibility for the Pre-foreclosure Sale Procedure. In order to be considered for the pre-
    foreclosure sale procedure, a mortgagor:

   (1) Must be an owner occupant in a single family residence that is security for a mortgage
       insured under this part, unless otherwise prescribed by the [HUD] Secretary.
   (2) Must have an account in default, for such period as determined by the Secretary, which
       default is the result of an adverse and unavoidable financial situation.
   (3) Must have, at the time application is made to pursue a pre-foreclosure sale, a mortgaged
       property whose current fair market value, compared to the amount needed to discharge
       the mortgage, meets the criterion established by the Secretary, unless a variance is
       granted by the Secretary.
   (4) Must have received an appropriate disclosure, as prescribed by the Secretary.

Excerpts From Mortgagee Letter 2008-43: Pre-Foreclosure Sale (PFS) Program - Utilizing
the PFS Loss Mitigation Option to Assist Families Facing Foreclosure

Pre-Foreclosure Sale Introduction

The Pre-Foreclosure Sale (PFS) option allows mortgagors in default (resulting from an adverse
and unavoidable financial situation) to sell their home at FMV [fair market value] and use the
sale proceeds to satisfy the mortgage debt even if the proceeds are less than the amount owed.
This option is appropriate for mortgagors whose financial situation requires that they sell their
home, but they are unable to do so without FHA relief because the gross recovery on the sale of
their property (i.e., sales price minus sales expenses) is less than the amount owed on the
mortgage. HUD’s home retention alternatives such as Special Forbearance, Mortgage
Modification, or Partial Claim must first be considered and determined unlikely to succeed due
to the mortgagor’s financial situation. Mortgagees must maintain supporting documentation to
demonstrate that a comprehensive review of the mortgagor’s financial records was completed,

                                                20
                                                   
and that the mortgagor did not have sufficient income to sustain the mortgage. Under no
circumstances shall the PFS option be made available to mortgagors who have abandoned their
mortgage obligation despite their continued ability to pay.

To participate in the program, mortgagors must be willing to make a commitment to actively
market their property for a period of 3 months, during which time the mortgagee delays
foreclosure action. Mortgagors who successfully sell to a third party within the required time
may receive a cash consideration of up to $1,000. Mortgagees also receive a $1,000 incentive
for successfully avoiding the foreclosure and complying with all the requirements of this ML
[mortgagee letter]. If the property does not sell, mortgagors are encouraged to use the deed-in-
lieu of foreclosure (DIL) option, providing the title on the property is marketable. By following
procedures and time frames included in this ML, a mortgagee may submit a FHA insurance
claim and be compensated for the difference between the sale proceeds and the amount owed on
the mortgage (including accrued interest and reimbursable costs).

A PFS sale must be an outright sale of the property. If a foreclosure occurs after the mortgagor
unsuccessfully participated in the PFS process in good faith, neither the mortgagee nor HUD will
pursue the mortgagor for a deficiency judgment.

B. Mortgagor Qualifications

The PFS option may be extended to mortgagors who:

•      Are in default as a result of an adverse and unavoidable financial situation. Adverse and
       unavoidable financial situations may include but are not limited to loss of job or
       verifiable income reduction and extensive medical expenses;

•      Have negative equity as determined by an “as-is” FHA appraisal that indicates a property
       value less than 100% of the outstanding mortgage balance (including unpaid principal
       and accrued note rate interest) and any outstanding Partial Claim amounts, which are
       secured by a subordinate lien and/or a note. A PFS may be considered if the property’s
       “as-is” appraised FMV slightly exceeds the mortgage payoff figure, but gross sales
       proceeds fall short of the amount needed to discharge the mortgage by more than $1,000;

•      Are owner-occupants of a one-to-four unit single-family dwelling with a FHA-insured
       mortgage under Title II of the National Housing Act. Mortgagees are authorized to grant
       reasonable exceptions to non-occupant borrowers when it can be demonstrated that the
       need to vacate was related to the cause of default (e.g., job loss, transfer, divorce, death),
       and the subject property was not purchased as a rental or used as a rental for more than 18
       months prior to the mortgagor’s acceptance into the PFS Program;

•      Have only one FHA-insured loan. Mortgagees are authorized to make reasonable
       exceptions for mortgagors who have acquired an FHA-insured property through
       inheritance or co-signed a FHA-insured loan to further enhance the credit of another
       mortgagor; or



                                                21
                                                   
•      Are not a corporation or partnership (i.e., unless a written request to utilize the PFS has
       been approved by HUD’s National Servicing Center (NSC)).

D. Financial Analysis

Prior to signing Form HUD-90045 (Approval to Participate), the mortgagee must request
financial documentation to evaluate the mortgagor’s ability to support the mortgage debt. The
PFS option may not be offered to mortgagors who have sufficient personal resources to pay off
their mortgage commitment.

The mortgagee may prescribe the form that the mortgagor must use to submit its financial
information. Mortgagors may provide financial information during a telephone interview,
electronically, via the regular mail, or in person. Regardless of how the mortgagor’s financial
information is obtained, the mortgagee must independently verify the financial information.
Mortgagors with surplus income and/or other assets are required to re-pay the indebtedness
through the use of a repayment plan.

The mortgagee must analyze the mortgagor’s ability to meet the monthly mortgage obligation
by:
•     Estimating the borrower’s fixed monthly expenses (e.g., mortgage payment, food,
      utilities, car payment, outstanding obligations, etc.);

•      Estimating the borrower’s anticipated monthly net income (making necessary
       adjustments for income fluctuations); and

•      Subtracting expenses from income to determine the amount of surplus income available
       each month.

If the mortgagee’s evaluation indicates that the mortgagor is not eligible for a PFS or another
loss mitigation option, the mortgagee must immediately advise the mortgagor of this decision in
writing, explaining the reason for denial and giving the mortgagor at least seven calendar days to
respond. In the servicing or claim review file, the mortgagee must maintain all evidence (i.e.,
supporting documentation, including all communication logs) of compliance with HUD’s Loss
Mitigation Program requirements.




                                                22
                                                   
Appendix E

            MORTGAGEE LETTER 2008-43 WEAKNESSES


Assets
The mortgagee letter does not define the amount or types of assets that a lender should consider.
It does not set a threshold at which assets become relevant; that is, there is no static dollar
amount or number of payments represented by the asset value that the mortgagee letter defines as
significant. Additionally, the mortgagee letter doesn’t dictate whether borrowers’ retirement
accounts, such as 401(k)s and individual retirement accounts, must be liquidated before the
borrowers may participate in the program. Retirement accounts are usually protected from
seizure during bankruptcy; however, they go into a larger total, including other personal and
business assets, that is used by the IRS to determine a taxpayer’s “true ability to pay” a tax debt.
The mortgagee letter also does not state whether borrowers are required to liquidate other assets,
such as investment real estate, recreational vehicles, or other personal valuables.

HUD has not mandated the use of a universal application or intake form for the program;
therefore, some lenders’ requests for financial information from the borrower include only
voluntary assets available, and some do not ask about assets at all. Since lenders did not always
obtain bank statements, we do not know how many additional borrowers had disqualifying cash
assets. In one example, the file included a bank statement for a borrower, showing very little
cash on hand, but failed to include a bank statement for one of the borrower’s other accounts
with more than $5,000 on deposit during the month in which she wrote her hardship letter.

Hardship
The mortgagee letter does not specify whether a lender should consider borrowers’ claimed
hardships that may have been avoidable or a result of personal choice but resulted in the
borrower’s being unable to sustain the mortgage. As written, it allows only for situations that are
both adverse and unavoidable.

Income Verification
The mortgagee letter does not prescribe how lenders should verify borrowers’ monthly net
income when determining the borrowers’ ability to sustain the mortgage. Unlike loan origination
standards, which prescribe how a lender is to verify a potential borrower’s income, the
Preforeclosure Sale Program does not detail the level and method of verification required.

Expense Verification and Mortgage Priority
The mortgagee letter does not describe how to verify borrowers’ monthly expenses or address
borrower circumstances. HUD has not described how a borrower’s situation should be evaluated
when the borrower’s credit report reflects large past-due balances as monthly payment amounts
due or accounts included in bankruptcy.

HUD officials told us that a “standard of reasonableness should be applied” when verifying
expenses, but such a standard has not been established by HUD according to household size,

                                                23
                                                   
geographic location, or any other factor. We attempted to reevaluate the claims using a
reasonable standard for other expenses, such as food, clothing, apparel and services, personal
care products and services, and transportation, by using the IRS Collection Financial Standards
(for use in calculating repayment of delinquent taxes). Because the Standards do not include a
standard for utilities, we also used the U.S. Department of Labor’s Relative Importance in the
Consumer Price Index to determine an objective amount for utilities.

Of the 28 sample items, which were only deficient in that expenses had not been verified by the
lender, 16 passed using our alternative objective expenses method. That is, in 16 cases, the
expenses supported by the borrowers’ credit report, IRS Collections Financial Standards, and
Relative Importance in the Consumer Price Index would have exceeded the borrowers’ verified
income (these cases are still listed as exceptions in this report because the lenders did not follow
the program requirements).

HUD doesn’t require the mortgage to take priority over any of the borrowers’ discretionary
spending or require borrowers to reduce other expenses. The mortgagee letter also doesn’t
specify whether “fixed” expenses include all discretionary spending. As a result, all of the
borrower’s claimed expenses are totaled, and if a monthly shortfall results, the lender assumes
that the borrower qualifies for the program without considering whether the borrower could
reduce other expenses to afford the mortgage.

In some cases, borrowers made significant charitable contributions or gambling expenditures
instead of making their mortgage payment. In other cases, the borrowers failed to make
mortgage payments to provide financial support to family members not on the mortgage or to
make other large purchases, and in one case, a borrower made the maximum yearly tax-
deductible 401(k) contribution of more than $16,000 during the year the borrower qualified for
the program. If HUD would adopt an objective expense allowance rather than the current
method, it would alleviate some of these concerns.

Surplus Income
The mortgagee letter does not explicitly state by how much income must exceed expenses to be
considered surplus or whether any surplus is considered sufficient to sustain the mortgage. As it
is written, a borrower with any surplus income is disqualified from the program.




                                                 24
                                                   
